'/

f'O-aR'-'X

0*

No.

ORIGINAL
Supreme Court, U.S.
FILED

AUG 1 7 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Dose Luis Torres

— PETITIONER

(Your Name)
vs.
Smithfield SCI, et al.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. Court of Appeals for the Third Circuit

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

3ose Luis Torres (I.D. No. KK-9715)

(Your Name)
Dallas SCI, 1000 Follies Road

(Address)
Dallas. PA 18612

(City, State, Zip Code)
N/A

(Phone Number)

TABLE OF CONTENTS
iii

Table of Citations

v

Questions Presented

vi

List of Parties/ Related Cases

□pinions Beloui

1

Ourisdictian

2

Constitutional And Statutory Provisions Involved

3

Statement Of The Case

4

Reasons For Granting The lilrit

9

Argument Summary ..............................................................................................

9

This Court Should Reject The Lower Courts' Denial Of Habeas Corpus
. Relief Because Their Decisions Are Contrary To, And Conflict With,
Relevant Decisions Of This Court, And Other Federal & State Courts

10
10

Merit
Multiplicious Offenses of PNTPF

10

Multiplicious Offenses of RSP

12

Greater & Lesser Offenses: Burglary & RSP

13

Deficient Performance

14

Prejudice

15

Breach of the Plea Agreement

18
19

Excusing a Procedural Default

20

Conclusion

INDEX TO APPENDICES
Appendix A: Order, April 2, 2020, U.S. Court of Appeals for the Third Circuit
(Denying Petition for Certificate of Appealability).

-i-

Appendix B: Order &
Eastern
denying
existed

Opinion, September 12, 2019, U.S. District Court for the
District of Pennsylvania (Adopting Report & Recommendation,
§ 2254 Petition, and determining that no probable cause
to issue a certificate of appealability) .

Appendix C: Report & Recommendation, April 30, 2018, U.5. Magistrate Court
(Recommending denial of § 2254 Petition).
Appendix D: Order, Dune 4, 2020, U.S. Court of Appeals for the Third Circuit
(Denying Petition for Rehearing) .
Appendix E: Order, April 7, 2015, Supreme Court of Pennsylvania (Denying Petition
for Allowance of Appeal).
Appendix F: Opinion, October 31, 2014, Superior Court of Pennsylvania (Affirming
denial of PCRA Petition).
Appendix G: Opinion, dune 24, 2013, Court of Common Pleas of Lehigh County,
Pennsylvania (Denying PCRA Petition) .
Appendix H: Petition for Certificate of Appealability (Exhibits Omitted), October
26, 2019.
Appendix 0: Petitioner's Objections to Report & Recommendation, dune 15, 2018.
Appendix K: Habeas Corpus Petition, 28 U.S.C. § 2254 (in relevant part); May 7,
2015 (amended on dune 1, 2015 with leave of court).
Appendix L: Memorandum of Law in Support of § 2254 Habeas Petition, dune 18, 2015.
Appendix M: Addendum To Memorandum of Law in Support of § 2254 Habeas Petition,
October 4, 2015.
Appendix N: Criminal Information at CP-39-CR-2822-2011, duly 2B, 2011.
Appendix 0: Criminal Information at CP-39-CR-289-2012 (in relevant part), February
14, 2012.
Appendix P: Notes of Testimony, PCRA Evidentiary Hearing, May 29, 2013 (in
relevant, part) .
Appendix Q: Notes of Testimony, Guilty Plea & Sentencing, February 27, 2012 (in
relevant part).
Appendix R: Notes of Testimony, Guilty. Plea & Sentencing, September 10, 2012 (in
relevant part) .

-ii-

TABLE OF AUTHORITIES CITED
PAGE NUMBER:

CASES:
Bell v. U.S., 394 U.S. 01, 75 S. Ct. 620, 99 L. Ed. 905 (1955) ..........

10-11, 13

Brown v. Ohio, 432 U.S. 161, 97 S. Ct. 2221, 53 L. Ed. 2d 1B7 (1977)

13

Cam. v. Brandrup, 366 A.2d 1233 (Pa. Super. 1976)

11

Com. v._Farrar, 413 A.2d 1094 (Pa. Super. 1979)

13
7

Com. v. Finley, 550 A.2d 213 (Pa. Super. 19BB)
.................

16

Com. v. Woods, 710 A.2d 626 (Pa. Super. 1988) .

11

Dunn v. Colleran, 247 F.3d 450 (3d Cir. 2001) .

16

Hill v. Lockhart, 474 U.S. 52, 106 5. Ct. 366, BB L. Ed. 2d 203 (1985) .

15

Hinton v. Alabama, 571 U.S. 263, 134 S. Ct. 1081, 188 L. Ed. 2d 1 (2014)

15

Com. v._Small, 980 A.2d 549 (Pa. 2009)

13

Hunter v. Com., 79 Pa. 503 (Pa. 1875) ..

13

Oeffers v. U.S., 432 U.S. 137, 97 S. Ct. 2207, 53 L. Ed. 2d 168 (1977)

9, 15, 17

Lafler v. Cooper, 566 U.S. 156, 182 L. Ed. 2d 398 (2012)
Lee v. U.S., 137 S. Ct. 1958, 198 L. Ed. 2d 476 (2017) .........................................

9

, 132 S. Ct. 1309, 182 L. Ed. 2d 272 (2012)

19

Martinez v. Ryan, ____U.S.

Miller-El v*_Cackrell, 537 U.S. 322, 123 5. Ct. 1029 (2003)

.............................

3

Missouri v. Frye, 566 U.S. 134, 132 S. Ct. 1399, 1B2 L. Ed. 2d 379 (2012) ... 3, 9
Padilla v. Kentucky, 559 U.S.

356, 130 S. Ct. 1473, 176 L. Ed. 2d 284 (2012) ... 9

Puckett v. U.S., 129 S. Ct. 1423 (2009)
Sanabria v. U.S., 437 U.S. 54, 98 S. Ct. 2170,
-----------d 43 (1g7B)

3

3, 10, 12-13

Santobello v. New York, 404 U.S. 257, 92 S. Ct. 495,
30 L. Ed. 2d 427 (1971 ) ....................................... .

3, 16, 18

Slack v. McDaniel, 529 U.S. 473 (2000) ......................

3

State v. Schneller, 199 La. 811, 7 So. 2d 66 (1942)

13

-iii-

Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052,
B0~L7~Ed7~2d~674~(19B4) .............................................

14-15

U.S. v. Baird, 218 F.3d 221 (3d Cir. 2000)

1B

U.S. v. Horodner, 993 F.2d 191 (9th Cir. 1993)

11

U.S. v. Bones, 533 F.2d 13B7 (6th Cir. 1976)

11

Wertz v. Vaugh, 22B F.3d 17B (3d Cir. 2000)

16

STATUTES AND RULES:
1B Pa.C.S.A. § 110

7

1B Pa.C.S.A'. § 3502(a)

4

18 Pa.C.S.A. § 3925(a)

4, 13

1B Pa.C.S.A. § 6101, et seq

4, 11
2

2B U.S.C. § 1254(1)
2B U.S.C. § 2254

3, 7, 20

Pa.R.Crim.P. 5B2

7

CONSTITUTION AND OTHER:
Fifth Amendment to the U.S. Constitution, Double Jeopardy Clause

passim

5ixth Amendment to the U.S. Constitution

passim

Fourteenth Amendment to the U.S. Constitution
Annotation, Possession of Stolen Property As A Continuing Offense,
24 A.L.R. 5th 132, Subsections 3(a), 4(a) (1994) ......................

-iv-

3, 16, 1B-20

13

QUESTION(S) PRESENTED

1.

WHETHER A CERTIFICATE OF APPEALABILITY SHOULD HAVE BEEN GRANTED WHERE
PETITIONER SUBSTANTIALLY DEMONSTRATED THAT COUNSEL'S: (A) DEFICIENT ADVICE;
(B) FAILURE TO FILE A MOTION TO CONSOLIDATE SEPARATE CASES WHICH CONTAINED
THE SAME, GREATER & LESSER OFFENSES: AND (C) FAILURE TO FILE A MOTION TO
QUASH MULTIPLICIOUS COUNTS; CAUSED SEPARATE PLEA AGREEMENTS TO BE ACCEPTED
WHICH CONTRARILY RESOLVED THOSE SAME OFFENSES?

2.

WHETHER A PROMISE TO DISMISS A LESSER OFFENSE OF RECEIVING STOLEN PROPERTY
AS AN INDUCEMENT TO PLEAD GUILTY WAS VIOLATED WHEN THE PETITIONER WAS
CONVICTED OF THE GREATER OFFENSE OF BURGLARY AT A SEPARATE TRIAL?

3.

WHETHER TWO SEPARATE PLEA AGREEMENTS CANCEL EACH OTHER OUT WHERE ONE
DISMISSED A PERSONS NOT TO POSSESS FIREARMS OFFENSE AS AN INDUCEMENT TO PLEAD
GUILTY AND THE OTHER CONVICTED THE PETITIONER OF THE SAME OFFENSE VIA A
MULTIPLICIOUS COUNT?

-v-

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Heather F. Gallagher, Esq.
Lehigh County Office
of District Attorney
455 West Hamilton Street
Allentown, PA 18101

Ronald Eisenberg, Esq.
Office of Attorney General
of Pennsylvania
1600 Arch Street, Suite 300
Philadelphia, PA 19103

RELATED CASES
Commonwealth of Pennsylvania v. Dose Luis Torres, Nos. 2821, 2822, 2828-2011 and
282, 289, 3824-2012, Court of Common Pleas of Lehigh County, PA. Judgment entered
June 21, 2013.
Commonwealth of Pennsylvania v. Jose Luis Torres, No. 2117 EDA 2013, Superior
Court of Pennsylvania. Judgment entered October 31, 2014.
Commonwealth of Pennsylvania v. Jose Luis Torres, No. 872 MAL 2014, Supreme Court
of Pennsylvania. Judgment entered April 7, 2015.
Jose Luis Torres v. Kevin Kauffman, et al., No. 15-2703, U.S. District Court for
the Eastern District of Pennsylvania. Judgment entered September 12, 2019.
Jose Luis Torres v. Smithfield SCI, No. 19-3398, U.S. Court of Appeals for the
Third Circuit. Judgments entered April 2, and June 4, 2020.

J
-vi-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.

---- to

1__ to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the —
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was April 2. 2020
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: June 4, 202.0----order denying rehearing appears at Appendix —Q
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including---------in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________ and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including-----Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

-2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The right of a state prisoner to have the effective assistance of counsel at all
critical stages of the criminal proceedings, including the entry of a guilty plea,
is guaranteed by the Sixth Amendment to the U.S. Constitution. Missiouri v. Frye,
566 U.S. 134, 132 S. Ct. 1399, 1B2 L. Ed. 2d 379, 3B7 (2012).
The right of a state prisoner to be free from successive trials for the same
offenses is guaranteed by the Double Jeopardy Clause, Fifth Amendment to the U.S.
Constitution. Sanabria v. U.S., 437 U.S. 54, 9B S. Ct. 2170, 57 L. Ed. 2d 43 (197B).
Any promises that mere made to a state prisoner as an inducement to plead
guilty must be fulfilled pursuant to "due process of lam" under the Fourteenth
Amendment to the U.S. Constitution, Santobello v. New York, 404 U.S. 257, 262, 265,
266, 92 S. Ct. 495, 30 L. Ed. 2d 427 (1971); and pursuant to the "law of contracts,"
Puckett v. U.S., 129 S. Ct. 1423, 1430 (2009).
The right of a state prisoner to seek federal habeas corpus relief is
guaranteed in 2B U.S.C. § 2254. The standard for relief under "AEDPA" is set forth
in 2B U.S.C. § 2254(d)(1) .
STANDARD OF REVIEW
In Miller-El v. Cockrell, 537 U.S. 322, 123 S. Ct. 1029 (2003), this Court
clarified the standards for issuance of a certificate of appealability (hereafter
"C0A") :
A prisoner seeking a C0A need only demonstrate a "substantial showing of
the denial of a constitutional right." A petitioner satisfies this
standard by demonstrating that jurists of reason could disagree with the
district court's resolution of his constitutional claims or that jurists
could conclude the issues presented are adequate to deserve encouragement
to proceed further ... We do not require petitioner to prove before the
issuance of a C0A that some jurists would grant the petition for habeas
corpus. Indeed, a claim can be debatable even though every jurist of
reason might agree after the C0A has been granted and the case has
received full consideration that petitioner will not prevail.
Id, 123 S. Ct. at 1C34, citing Slack v. McDaniel, 529 U.S. 473, 4B4 (2000).
-3-

I
I

•i .

STATEMENT OF THE CASE
Between Dune 2010 and May 2011, Petitioner committed a series of ten
burglaries in Lehigh County, Pennsylvania & neighboring jurisdictions. One of these
burglaries, occurring on May 2B, 2011, involved the residence of Michael Garman
.from where Petitioner removed a Smith & Wesson "9mm pistol." On Dune 3, 2011,
police conducted a traffic stop where the Petitioner was arrested in possession of
the 9mm pistol.
Two separate indictments or criminal informations were issued charging
Petitioner, in relevant part, with possession & theft of the 9mm pistol as follows:
On Duly 2B, 2011, the Lehigh County District Attorney's Office charged Petitioner
with:
CP-39-CR-2B22-2011 (hereafter "first set") (Appendix N):
Count 1 - Receiving Stolen Property (hereafter "RSP") (1B Pa.C.S.A.
§ 3925(a)).
Count 2 - Persons Not To Possess Firearms (hereafter "PNTPF") (1B
Pa.C.S.A. § 6105(a)(1)).
On February 14, 2012, the Lehigh County District Attorney's Office charged
Petitioner with:
CP-39-CR-289-2012 (hereafter "second set") (Appendix 0):
Count 25 - Burglary (1B Pa.C.S.A. § 3502(a)).
Count 2B - RSP (1B Pa.C.S.A. § 3925(a)).
Count 32 - PNTPF (1B Pa.C.S.A. § 6105(a)(1)).
On Duly 5, 2011, the Petitioner waived his preliminary hearing on the first set of
charges in exchange for a promise from the prosecutor that any future sentences
imposed, between those possession & theft counts, would run concurrent with each

-4-

other
On February 26, 2012, counsel presented Petitioner with a plea offer on the
first set of charges: guilty plea to possession of the 9mm pistol (PNTPF) in
exchange for a promise from the prosecutor that it mould dismiss & not further
pursue the theft of the firearm (RSP) .
The Petitioner expressed a double jeopardy concern to counsel that the plea
offer should also include & resolve the second set of charges because Petitioner
believed both sets charged the same, exact offenses, in duplicate: PNTPF & RSP;
and lesser & greater included offenses: Burglary & RSP.

2

The folloming day, on February 27, 2012, in court, counsel advised Petitioner
that the separate sets did not charge the same offenses, but mere actually
distinct offenses;

3 and, so, therefore, the prosecutor mould not offer him a plea

bargain mhich resolved both sets of charges at the same proceeding.
Petitioner mas hesitant in accepting counsel's advice & asked counsel if she
could request a continuance; in order to give Petitioner more time to consider the
plea offer & to research mhether counsel's advice mas correct. Counsel stated that
she mould not request such a continuance because there mere no double jeopardy
concerns, ^ and that Petitioner had but tmo choices to make on February 27, 2012:
5
either accept the plea offer or proceed immediately to trial.

1

See, N.T. 5/29/13, PCRA Evidentiary Hearing, pg. 15 (Appendix P) .

2

Id, pgs . BB-B9.

3

Counsel later explained that she believed the offenses mere distinct from
each other because: (1) the dates of the offenses mere different; (2) they
did not involve the same 9mm pistol; and (3) even if the same firearm mere
involved, the Petitioner could lamfully be charged more than once mith
possession of the same firearm. (Id, pgs. 24-25).

4

Id, pg. 33.

5

Id, pg. 65.
-5-

Based on counsel's advice insisting that both sets of charges mere distinct &
did not require consolidation under the law, Petitioner accepted the plea offer an
the first set of charges, entering a guilty plea to PNTPF & receiving a sentence
of 5 to 10 years imprisonment. In exchange for this conviction, as a quid pro quo
part of the agreement, the prosecutor agreed to dismiss & not further pursue the
RSP count.

6

The factual basis for the guilty plea established that the 9mm pistol mas the
one stolen from the residence of Michael Garman & recovered from the Petitioner's
vehicle at the time of his arrest.

7

Thereafter, Petitioner had counsel appointed stand-by & proceeded pro se on
second set of charges. On September 10, 2012, Petitioner accepted another plea
offer mhich nom resolved the second set of charges contrary to the first set.
Petitioner nom entered a guilty plea to the Burglary count in exchange for
dismissal of the PNTPF count. In accordance mith this plea agreement, the
Petitioner received a sentence of 7 1/2 to 15 years imprisonment for his Burglary
conviction; homever, consecutive to the previous sentence of 5 to 10 years for
PNTPF.

B

The factual basis for this guilty plea also established the same facts as
before: that the 9mm mas the one stolen from the residence of Michael Garman &
9
recovered from the Petitioner's vehicle at the time of his arrest.
Post-Conviction Histo_r_y_
Petitioner did not file a direct appeal, but on February 19, 2013, he filed

6

See, N.T. 2/27/12, Guilty Plea & Sentencing, pgs. 2-4 (Appendix Q) .

7

Id, pgs. 6-7.

8

See, N.T. 9/10/12, Guilty Plea & Sentencing, pgs. 2-5 (Appendix R) .

9

Id, pg. 17.
-6-

timely Pennsylvania Past Conviction Relief Act (PCRA) petition in the Court of
Common Pleas of Lehigh County, Pennsylvania.

1n

Counsel was appointed for Petitioner

for his PCRA action, but the court-appointed attorney filed a Finley

11 no-merit

letter and sought to withdraw from the case.
The PCRA court permitted appointed counsel to withdraw and after holding an
evidentiary hearing denied the PCRA petition on Dune 24, 2013 (Appendix G).
Petitioner filed a timely appeal to the Superior Court of Pennsylvania and on
October 31, 2014, the Superior Court affirmed the denial of the PCRA petition
(Appendix F) . The Petitioner filed a timely Petition for Allowance of Appeal to the
Supreme Court of Pennsylvania and on April 7, 2015, the state Supreme Court denied
the petition (Appendix E).
Petitioner filed a timely 28 U.S.C. § 2254 habeas petition on May 7, 2015, in
the U.S. District Court for the Eastern District of Pennsylvania (Appendix K) .

12

On April 30. 2018, U.S. Magistrate Budge Perkins issued a Report & Recommendation,

1C

The PCRA petition alleged ineffective-assistance based on counsel's failure
to challenge offenses contained in separate indictments which were the same
and/or related, prior to entering into the first plea agreement. Petitioner
argued that counsel should have filed motions to consolidate the separate
indictments & dismiss the duplicate counts pursuant to Pa.R.Crim.P 582:
"Ooinder of Offenses," and 18 Pa.C.S.A. § 110: "Compulsory Ooinder Statute."
Petitioner further alleged that counsel's failures subjected him to breaches
of his plea agreements and/or double jeopardy under state law.

11

Com. v. Finley, 550 A.2d 213 (Pa. Super. 1988).

12

The habeas petition challenged the February 27, 2012 guilty plea which
dismissed a lesser offense of RSP as an inducement to plead guilty to PNTPF,
on the basis of ineffective-assistance where counsel failed to raise a 5th
Amendment challenge to the same offenses contained in a separate case, advised
there were no double jeopardy concerns and, thereafter, the prosecution
offered another plea bargain which dismissed, in reverse order, the same PNTPF
offense as an inducement to plead guilty to the greater offense of Burglary,
breaching the terms of the former agreement (See, ground one & supporting
facts of habeas petition, pgs. 8, 8(a)-(c)). Petitioner, also, filed separate
Memorandums of Law clarifying his habeas claims (Appendices L & M).

-7-

recommending that habeas relief be denied (Appendix C), and on dune 15, 2018,
Petitioner filed Objections to the Report & Recommendation (Appendix 0). On
September 12, 2019, the District Court overruled Petitioner's Objections, adopted
the Report & Recommendation, denied the § 2254 habeas petition and ruled that no
probable cause existed to issue a certificate of appealability (Appendix B) .
On October 1, 2019, Petitioner filed a timely Notice of Appeal to the U.S.
Court of Appeals for the Third Circuit and a timely Petition for Certificate of
Appealability on October 26, 2019 (Appendix H). On April 2, 2020, the Court of
Appeals denied the Petition for Certificate of Appealability (Appendix A) and on
May B, 2020, Petitioner filed a timely Petition for Rehearing, which was denied on
dune 4, 2020 (Appendix D). The instant, timely Petition for Writ of Certiorari
follows.

)

-8-

REASONS FOR GRANTING THE PETITION
(Argument Summary)
This case presents a question regarding an ineffectiveness-assistance claim
in the plea bargain context which this Court has found to be a question of
tantamount importance & concern. 13 The particular facts & circumstances of this
14 in that: counsel's deficient performance 15 caused
case sets it apart from others,
separate & distinct plea bargains to be accepted which resolved the same offenses
differently in each agreement; effectively causing the following three breaches:
Breach # 1: The first plea agreement dismissed a lesser offense of R5P as an
inducement to plead guilty to PNTPF. The second plea agreement
convicted Petitioner of the greater offense of Burglary.
Breach # 2: The second plea agreement dismissed the PNTPF offense as an
inducement to plead guilty to Burglary. The first plea agreement
convicted Petitioner of that same offense of PNTPF.
Breach # 3: The first plea agreement promised concurrent sentences between
PNTPF & the lesser offense of RSP. The second plea agreement
imposed consecutive sentences between the same PNTPF & greater
offense of Burglary.

13

Missouri v. Frye, 566 U.S. 134, 132 5. Ct. 1399, 1B2 L. Ed. 2d 379, 389.(2012)
^"...pleas account for nearly 95% of all criminal convictions. The reality is
that plea bargains have become so central to the administration of the
criminal justice system that defense counsel have responsibilities in the plea
bargain process, responsibilities that must be met to render the adequate
assistance of counsel that the Sixth Amendment requires in the criminal
process at critical stages. Because ours is for the most part a system of
pleas not a system of trials,'" citing Lafler v^_Cooper, 566 U.S. 156, 1B2 L.
Ed. 2d 398, 411 (2012).

14

Lee v. U.S., 137 S. Ct. 195B, 19B L. Ed. 2d 476 (2017) & Padilla_v_._Kentucky,
559"07s7'356, 130 S. Ct. 1473, 176 L. Ed. 2d 2B4 (2010) (setting aside guilty
pleas because counsel had misinformed the defendants of its immigration
consequences); Missouri, supra & Lafler, supra (setting aside guilty pleas
where counsel's deficient performance caused favorable plea offers to lapse or
be rejected).

15

(1) failing to file a motion to join two separate indictments containing the
same offenses; (2) failing to file a motion to quash duplicate counts; and
(3) advising that the offenses were not the same & presented no double
jeopardy concerns prior to entry of a guilty plea.

-9-

This Court Should Reject The Lower Courts' Denial Of Habeas Corpus Relief
Because Their Decisions Are Contrary To, And Conflict With, Relevant
Decisions Of This Court, And Other Federal & State Courts.
The U.5. Court of Appeals did not provide independent reasons for denying the
COA. It relied on the same reasons provided by the U.S; District Court. Hence, only
a review of the District Court's reasons are necessary.
Merit
Since Petitioner's ineffective-assistance claim hinges on whether or not
separate indictments, in fact, charged the same offenses which required joinder; as
a threshold matter, the District Court needed to correctly determine all of the
following:
Multiplicious Offenses of PNTPF:
Concerning duplicate counts of PNTPF, the District Court stated:
"Moreover, Petitioner fails to provide support for the proposition that
double jeopardy only permits a single prosecution for possession of a
particular gun no matter how many distinct incidents involved that gun.
There is no basis in the record to conclude that Petitioner could not be
charged for possessing the Smith & Wesson gun at different times & in
different places."
5ee, District Court's September 12, 2019 Opinion, at pg. 5, n5.
This determination is contrary to both, clearly established federal & state
law as fallows: The Double Oeopardy Clause protects a defendant against: (1)
successive prosecutions; (2) multiple charges under separate statutes requiring
proof of the same factual events; and (3) multiple charges under the same statute.
U.S. Const^ Amend,. VL The multiplicity doctrine involves the third of these
protections. Sanabria v. U.S.,. 437 U.S. 54, 65 n. 19, 9B S. Ct. 2170, 57 L. Ed. 2d
43 (197B) . Also see, Bell_v ._U .5., 394 U.S. 81,' B3-B4, 75 S. Ct. 620, 99 L. Ed.
905 (1955) (When a defendant is charged with violating one statute multiple times,
"the question is whether the facts underlying each count were intended by [the
legislature] to constitute separate 'units' of prosecution").

-10-

Concerning a defendant being charged with violating the Uni^arm_Fxrearms_Act
(1B Pa.C.S.A. § 6101, et seq.) multiple times, Pennsylvania courts have answered
the question posed in Bell clearly in the following cases:
A.2d 1233 (Pa. Super. 1976), and Com. v. Woods, 710 A.2d 626 (Pa. Super. 1988):
Here, this firearm offense [Former Convict Not To Possess A Firearm - 1B
Pa.C.S.A. § 6105] was a continuing one ... the [defendant] had possession
of the firearm on October 23 and 24, 1974, and continued to have it in
possession until it was removed from him by police [on October 25, 1974]
...[defendant] continuously violated [1B Pa.C.S.A. § 6105] during the
periods of time which he had possession of the firearm.
A.2d at 1235.
The violation of the Firearms Act [possession/carrying] was separate and
apart from [defendant's] usage of the firearm in the assaults ... [thus]
the Commonwealth's decision to charge him with two violations [under the
Firearms Act] is wholly arbitrary ... In the context of an uninterrupted
or continuous carrying of a weapon, at what point does one stop carrying
a firearm on the street and start anew? Does one commit a violation of
the Act with every step he takes while carrying a firearm? Or does one
commit a violation based upon a certain passage of time? If so, how much
time must pass before a new offense begins? Is it a separate offense for
every hour one carries a weapon? Or every ten minutes? ... [the
defendant's] carrying of the weapon must be construed from a logical
standpoint, to represent a single offense of the statutory prohibition
against carrying a weapon. Woods, 710 A.2d at 631.
Contrary to the District Court's statement that the Petitioner failed to provide
support for his proposition, the above authorities were provided to the court in
supporting briefs (Appendices L, pgs. 2-5, and 3, pgs. 3-6). The following federal
cases also support the same proposition: U.5. v. Horodner, 993 F.2d 191 (9th Cir.
1993) (holding that defendant who was charged with two counts of being a felon in
possession of a firearm retained "constructive possession" of the firearm at
different places & times throughout a ten day period constituting only "one
uninterrupted course of conduct"); U.S. v. Cones, 533 F.2d 13B7, 13B9-92 (6th Cir.
1976) (holding that defendant who was charged with three counts of possession of
the same revolver on three separate dates & in different places constituted a
"course of conduct, not an act." Thus, the defendant could only be convicted once
for his possession of the firearm).
-11-

Thus, due to all of the above, the District Court's Opinion stating that the
Double Deopardy Clause permits multiple prosecutions for possession of a single
firearm is clearly erroneous. The Petitioner, indeed, mas charged in tmo separate
counts rnith having possessed the Smith & Wesson, 9mm pistol "at different times &
in different places": On May 2B, 2011, in Berks County, Pennsylvania at the time
of the burglary; and on June 3, 2011, in Lehigh County, Pennsylvania at the time
of the traffic stop. Homever, betmeen those tmo dates & counties, the Petitioner
retained "constructive possession" of the firearm. Thus, Petitioner should not
have been charged tmice for "one uninterrupted course of conduct." As the Sanabria
4

Court correctly stated, "a single offense should normally be charged in one count
rather than several, even if different means of committing the offense are alleged.
Sanabria, supra, 437 U.S. at 66 n. 20).
Multiplicious Offenses of RSP:
Concerning duplicate counts of RSP contained betmeen separate indictments, the
District Court determined that the record mas unclear as to mhether the counts mere
for being in "receipt of the same gun, another gun or some other stolen property"
(pg. 5 of District Court's Opinion). The District Court's statement here mas
incorrect for the record does clearly establish that both counts of RSP involved
receipt of the same 9mm pistol as folloms:
Count 1 of 2B22-2011 charged that Petitioner "did unlamfully receive ... a
Smith & Wesson Model 659, 9mm pistol, serial # TBF2165, the property of Michael
Carman." The notes of testimony of 2/27/12 further established that the firearm mas
recovered from the Petitioner's vehicle at the time of arrest (pgs. 6-7).
Count 2B of 2B9-2012 charged that Petitioner "did unlamfully receive ..<
movable property of another, as set forth in count 27 herein." Count 27 of 2B9-2012
described that movable property as "an electronic safe, tmo firearms ... property
of Michael Garman. The notes of testimony of 9/10/12, at pg. 17, established that
-12-

the "electronic safe, two firearms, one of which was a 9mm Smith & Wesson pistol
was recovered from [Petitioner's vehicle]" at the time of arrest.
Thus, the record does establish that Petitioner was charged with two counts of
RSP for receipt of the same firearm. The following state authorities, consistent
with the multiplicity doctrine cited in Sanabria & Bell, clearly establish that a
defendant cannot be charged with multiple counts of RSP involving receipt of the
same stolen firearm. See, Com. v. Farrar, 413 A.2d 1094, 109B (Pa. Super. 1979)
(The statute defining the crime of RSP makes the offense an ongoing or continuing
one); State v. Schneller, 199 La. B11, 7 So. 2d 66 (1942) (The unlawful possession
of stolen goods by a defendant over a period of several days constitutes a
continuing offense and not a separate & distinct offense for each day he retained
the goods); Annotation, Possession Of Stolen Property As A Continuing_0ffense, 24
A.L.R. 5th 132, Subsections 3(a), 4(a) (1994) (The crime of RSP begins at the time
of receipt of stolen property and ends only when the defendant is divested of the
stolen property). The above citations to the record & authorities were provided to
the District Court at Appendix L, pgs 2-5.
Greater & Lesser Offenses: Burglary & RSP:
The District Court failed to determine whether separate indictments or cases
contained greater & lesser offenses which should have been resolved together at one
proceeding. See, Brown_v._0hio, 432 U.S. 161, 169, 97 S. Ct. 2221, 53 L. Ed. 2d 1B7
(1977) (The Fifth Amendment forbids successive prosecutions and cumulative
punishments for a greater & lesser offense");

16

Also see, Oeffers v. U.S., 432 U.S.

137, 150, 97 S. Ct. 2207, 53 L. Ed. 2d 16B (1977) (defendant is entitled to have

16

The general rule is well settled that upon an indictment charging a particular
crime the defendant may be convicted of a lesser offense included within it.
Thus, a person charged with burglary may be convicted of larceny, if the proof
fail of breaking & entering. Hunter v. Com., 7? Pa. 503 (Pa. 1B75).

A

-13-

charges on a greater & lesser offense resolved at one proceeding) . It was critical
for the District Court to rule oh this issue because, as alleged in the habeas
petition, Petitioner requested that counsel move to consolidate the Burglary at
count 25 of 289-2012 with the RSP at count 1 of 2B22-2011 for the purpose of
resolving them together at the same guilty plea proceeding. However, counsel failed
to raise the joinder issue with the court & advised that the prosecution was
correct in refusing to consolidate those offenses; a grave error on counsel's part
and a prosecutorial decision prohibited by the Fifth Amendment. The above argument
on greater & lesser offenses was presented to the District Court at Appendix L,
pgs. 6-7.
Deficient Performance
Thus, due to all of the above, it is clear that there should not have been
multiple charges for a single offense in this case, nor separate guilty plea
proceedings which resolved the same offenses. Hence, trial counsel should have
moved to consolidate the separate indictments or cases and further moved to
quash the duplicate counts which existed on Fifth Amendment grounds. Had counsel
filed those motions, Petitioner would have ended up facing single counts of PNTPF
& RSP relative to the 9mm pistol; and those single counts would have been resolved,
)

jointly, with the related Burglary count at the same guilty plea proceeding. A
result with a much different outcome than the result caused by the separate
proceedings as addressed in the next section: "Prejudice."
Instead, counsel failed to file the above motions & advised Petitioner
incorrectly that no double jeopardy concerns existed, based on his flawed beliefs
and understanding of the relevant facts & law in this case (refer to fn. 3 herein).
Hence, counsel's performance under Strickland

17

17 was deficient. See, Hinton v.

Strickland v, Washington, 466 U.S. 66B, 104 S. Ct. 2052, BO L.Ed.2d 674 (19B4).
-14-

Alabama, 571 U.S. 263, 274, 134 5. Ct. 1081, 188 L. Ed. 2d 1 (2014) (It is well
established that an attorney's ignorance of a point of law that is fundamental to
his case combined with his failure to perform basic research on that point is a
quintessential example of unreasonable performance under Strickland) .
Wherefore, because of all of the above, the District Court's determination
that "counsel's performance was not constitutionally deficient

is erroneous and

contrary to Strickland.
Prejudj.ce
Deficient performance must be paired with specific prejudice - "a reasonable
probability that, but for counsel's unprofessional errors, the result of the
proceeding mould have been different. Strickland, supra, 466 U.S. at 694. "A
reasonable probability is a probability sufficient to undermine confidence in the
outcome." Id. The "traditional inquiry for prejudice in the plea context is whether
there is a reasonable probability that, but for counsel's errors, the petitioner
mould have foregone a guilty plea and insisted on trial." Hill_v^_Lockhart, 474
U.S. 52, 59, 106 S. Ct. 366, B8 L. Ed. 2d 203 (19B5).
This Supreme Court has expanded this inquiry to cover instances in which the
deprivation of the right to trial mas not the concern, but rather the opportunity
to enter a different guilty plea. However, there must be a showing as to whether
the other plea would have been available, accepted by both petitioner & the court,
and importantly, that the other plea offered 'less severe
& sentence

terms than the 'judgment

that was in fact imposed." Lafler, supra, 566 U.S. at 163-64.

Yet, there is another component of prejudice that must be considered in this
case because it involves breaches of the plea agreements, that would not have
occurred were it not for counsel's unprofessional errors. This Court has stated

1B

pg. 4 of District Court's Opinion.
-15-

that, "if the prosecution breaches its promises with respect to an executed plea
agreement, then the defendant's conviction cannot stand" because "whether
purposeful or inadvertent, that breach must be remedied regardless of whether the
defendant was prejudiced thereby" Santobello, supra, 404 U.S. at 262-63. Also see,
Dunn v. Colleran, 247 F.3d 450, 463 (3d Cir. 2001) (Under the law of the U.S. Court
of Appeals for the Third Circuit, Santobello errors are to be treated as akin to
structural defects and are not susceptible of harmless error analysis in habeas
proceedings).
Keeping all of the above in mind, The District Court's determination that
19
for
Petitioner suffered no prejudice from counsel's failure to act cannot stand
the following reasons. Before arriving at the prejudice prong, the District Court
had already failed to correctly determine the first two prongs : Merit & Deficient
Performance; ^ and failed to address any of the three, specific allegations of
attorney error made in the habeas petition (refer to footnote 15). The Court's
Opinion completely misconstrued the Petitioner's claim of attorney error as
challenging counsel's failure to file a motion to dismiss three offenses in the
latter prosecution on the ground that Petitioner had already been convicted or
acquitted of those same offenses previously. The habeas petition never claimed any
such thing.
Had the District Court addressed the correct claims of attorney error and
made the correct determinations, it would have found that Petitioner would not have

19
20

pgs. 5-7 of District Court's Opinion.
defendant must
In review of ineffective assistance of counsel claims,
establish: (1) that his underlying claim has arguable merit; (2) counsel had
no reasonable basis for his action or inaction; and (3) that he was prejudiced
by counsel's ineffectiveness. Com. v._Small, 980 A.2d 549, 55B (Pa. 2009).
Also see, Wertz v. V/augh, 22B F.3d 17B, 203-04 (3d Cir. 2000) (recognizing
that PennsyIvanIaTs-standard for assessing claims of counsel's ineffectiveness
is materially identical to Strickland).
-16-

plead guilty ta PNTPF in the first place, had counsel validated his double jeopardy
concerns & filed the appropriate motions. Had counsel filed those motions, the
Petitioner mould not have been offered two separate & distinct plea bargains
involving the same offenses; but mould have only been offered one mhich resolved
all of the PNTPF & Burglary offenses against Petitioner in a single proceeding, as
mas indeed offered & accepted by both Petitioner & the court on September 10,
2012.

21
The September 10, 2012 bargain dismissed all of the PNTPF offenses, including

the one at count 31 involving the 9mm pistol, as an inducement to plead guilty to
ten counts of Burglary and one count of Criminal Conspiracy to Commit Burglary.
The Petitioner mas sentenced to concurrent sentences of l\ to 15 years imprisonment
for his convictions. Had it not been for counsel's unprofessional errors,
Petitioner, mould not currently be serving a separate, consecutive sentence of 5 to
10 years imprisonment for a duplicate offense of PNTPF mhich should have never
existed pursuant to the authority of the Fifth Amendment.
Thus, based on all of the above, the Petitioner has met all three prongs of
the Lafler prejudice test: (1) a plea offer dismissing all of the PNTPF offenses in
exchange for guilty pleas to only the Burglary/Conspiracy offenses mas indeed
"available;" mas indeed "accepted" by both Petitioner & the court; and (3) offered
"less severe" terms than the judgment & sentence imposed on February 27, 2012, for
an illegal, duplicate offense mhich the latter agreement actually dismissed as a
quid pro quo part of the agreement. The above arguments mere presented, to the
District Court at Appendices L, pgs. 11-13 & 0, pg. 9.

21

The 9/10/12 plea bargain resolved 12
31 & 45 mhich mere illegally charged
and resolved 10 counts of Burglary &
count 2B mhich mas illegally charged

counts of PNTPF (including tmo at counts
in duplicate at the former prosecution);
related offenses (including the RSP at
in duplicate at the former prosecution).

-17-

Breach of the Plea Agreement
The conviction & sentence for PNTPF cannot stand for the plea agreement was
breached when the RSP count, which was dismissed & promised not to be further
pursued as an inducement to plead guilty in the former prosecution, was pursued
resulting in a conviction of the greater offense of Burglary in the latter
prosecution. See, Santobello, supra, stating:
Where the plea bargain is not kept by the prosecutor, the sentence must
be vacated and the state court will decide in light of the circumstances
of each case, whether due process requires (a) that there be specific
performance of the plea bargain, or (b) that the defendant be given the
option to go to trial on the original charges. One, alternative may do
justice in one case, and the other in a different case. In choosing a
remedy, however, a court aught to accord a defendant's preference
considerable, if not controlling weight in as much as the fundamental
rights flouted by a prosecutor's breach of ai plea bargain are those of
the defendant, not of the state.
Santobello, 404 U.S. at 267.
The Petitioner prefers that the conviction & sentence of 5 to 10 years for
PNTPF be vacated consistent with the specific performance of the agreement reached
on September 10, 2012, dismissing that same offense at count 31 of 2B9-2012 as an
inducement to plead guilty to Burglary. This would also satisfy the rule stating,
that any ambiguity in the plea agreement be strictly construed against the
government.

22

In the alternative, Petitioner prefers concurrent sentences between

the PNTPF & Burglary convictions consistent with the July 5, 2011 promise of
concurrent sentences between PNTPF & the lesser offense of RSP. Lastly, Petitioner
wishes in the alternative to withdraw his guilty plea to PNTPF. The above argument
on breaches of the plea agreement was presented to the District Court at Appendix
M.

22

U.S. v. Baird, 218 F.3d 221, 229 (3d Cir. 2000).

-10-

Excusing A Procedural Default
In Martinez v. Ryan,

U.S.

, 132 5. Ct. 1309, 182 L. Ed. 2d 272 (2012),

the Court stated:
"Where state laui requires a prisoner to raise a claim of ineffective
assistance of counsel in a collateral proceeding rather than on direct
review, a procedural default of those claims will not bar their review
by a federal habeas court if three conditions are met: (a) the default
was caused by ineffective assistance of post-conviction counsel or the
absence of counsel; (b) in the first collateral proceeding in which the
claim could be heard; and (c) the underlying claim of trial counsel
ineffectiveness is substantial."
Martinez, 132 5. Ct. at 1318-20.
The Petitioner has met all three of the above conditions for excusing a
procedural default as follows. The Petitioner's ineffective assistance of trial
counsel claim is substantial, ^ as demonstrated in all of the above. Petitioner's
PCRA counsel should have, thus, amended his inartfully drafted pro se PCRA petition
to include the meritorious 6th, 5th, & 14th Amendment claims presented herein.
Instead, PCRA counsel filed a no-merit letter and petitioned to withdraw from the
case, offering no assistance. Hence, Petitioner may be excused from a procedural
bar, and the District Court's determination (at pg. 7 of its Opinion) stating, that
the "Martinez exception to procedural default is inapplicable here" is erroneous &
contrary to the decision reached in Martinez. The above argument on excusing
procedural defaults was presented to the District Court at Appendices 0, pgs.
10-16 & L, pgs. 17-18.

23

Meaning the "claim has some merit," analogous to the substantiality
requirements for a C0A. Martinez, Id.

-19-

>

CONCLUSION

WHEREFORE, for all the reasons given above, including that it makes the
requisite substantial showing of the denial of Petitioner’s constitutional rights
under the Fifth, Sixth, and Fourteenth Amendments to the U.S. Constitution,
Petitioner respectfully requests and prays that this Honorable Court grant the
instant Petition for Writ of Certiorari.
Respectfully submitted,
Cose Luis Torres, pro se
Date::

17, ZOZO

J

-20-

/

